                             Closeout for M96060017


    The Assistant Director (AD)l sent a memorandum to the Inspector General on
June 24, 1996, requesting an investigation of allegations of misconduct that a PI
(the complainant) made concerning the review and reconsideration of his declined
proposal.2 The subjects of the inquiry are the two program managers3respons'ible
for the review and evaluation of the proposal.
    Based in part on the merit review panel's assessment, the program managers
declined funding for the PI'S proposal. The PI disagreed with the panel's scientific
assessment of his proposal and wrote to one of the program managers. The PI
claimed that the panel's scientific statements were wrong and that the panel was
probably negatively biased by a panel member4 who was hostile to his group. At
first, he requested a reconsideration, but then withdrew his request and decided to
resubmit the proposal. However, the program managers reexamined his proposal,
the individual panelist's reviews, and the panel summary for bias and accuracy.
They reported t o the PI that the panel was not biased against him and tried to
justlfy some of the reasons for the declination of his proposal. Unhappy with their
response, particularly the explanation of the panel's scientific criticism, the PI
renewed his request for a reconsideration on scientific grounds. The proposal was
reevaluated by a different merit review panel (composed of some new members in
addition to some of the previous panel members) who, in agreement with the
previous panel's evaluation, expressed doubt that the PI'S proposal was
theoretically and experimentally realizable. The PI wrote to the AD and said that
the panels had "falsified facts" and that his and the panels' Wering views should
be not considered as disagreements between experts, but rather as misconduct in
science. The PI also suggested he had been discriminated against and requested a
reconsideration from the AD. As stated above, the AD referred the allegations to
OIG. The AD reported that the reconsideration upheld the original decision to
decline the proposal.
   After speaking with the PI, OIG learned that he was not making an accusation
of misconduct in science per se, but rather was alleging improprieties in the review
and reconsideration of his proposal. The PI suggested that the panels' review of his
proposal was biased and incorrect, and that the reconsideration addressed only
procedural and not substantive issues. OIG agreed with the PI that this was not a
misconduct case and treated this inquiry as an oversight matter.


       Footnote redacted.
     2 Footnote redacted.
     3 Footnote redacted.
       Footnote redacted.


                                     Page 1 of 3
                             Closeout for M96060017



   OIG reviewed the individual panelists' proposal evaluations, the two panels'
summaries, and independently interviewed both program managers. The panelists
had a broad range of expertise that drew from three different fields of science with
backgrounds sufficient to review the content of the PI's proposal, and included both
theoreticians and experimentalists. Additionally, one of the panelists had expertise
on the specific topic of the proposal.
   None of the documents contained any statements that should be interpreted as
discrimination by the panels against the PI. Both program managers said that no
one on the panel made any derogatory, discriminatory, or biased comments against
the PI and that the evaluation was based only on a scientific assessment of the
proposal.
    The PI disputed the panels' criticism of his methodology and said that it was an
"established fact" that his methodology would give him the results he sought. One
of the program managers said that in instances where there is a disagreement as to
what constitutes an established fact, and "there was no obvious error on the part of
the contendees, the fact should not be considered established." The program
managers said that it was not just the opinion of one panelist, but the entire panel
that contended the "established fact." The program managers stated that they
relied on the panels' opinions that the PI's theoretical model was inadequate to
describe his proposed experiment.
    The PI alleged that the panel attributed scientific statements to him that he did
not make in his proposal, and then used those ("falsified") statements as
justification for a bad rating. The "falsified" statements were about the
mathematical assumptions upon which the theoretical model in the PI's proposal
was based. The PI did not specifically state the mathematical assumptions the
panel criticized in the Panel Summary. However, it was the unanimous opinion of
both panels that the PI's model was based on prior work that incorporated the
questioned mathematical assumptions, and therefore, the PI was incorrect in
judging what mathematical assumptions were required by his model. The program
managers agreed with the panels' opinion.
    OIG concluded that:
    there was no obvious bias in the panels' unanimous conclusions that the PI'S
   proposal was scientifically flawed;
    neither panel discriminated against the PI; the negative rating of his proposal
    was for scientific reasons; and
   during the review, evaluation, and reconsideration of the PI's proposal, both
   procedural and substantive issues were addressed.


                                     Page 2 of 3                              M96-17
                             Closeout for M96060017




   This inquiry is closed and no further action will be taken on this case.



cc: Legal, Deputy AIG-Oversight,AIG-Oversight, IG




                                     Page 3 of 3
